         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Inspection Report
Unclassified Foreign National Visits
and Assignments at Oak Ridge National
Laboratory




INS-O-13-05                     September 2013
                                           Department of Energy
                                              Washington, DC 20585

                                                 September 16, 2013

MEMORANDUM FOR THE MANAGER, OAK RIDGE NATIONAL LABORATORY
               SITE OFFICE



FROM:                            Sandra D. Bruce
                                 Assistant Inspector General
                                   for Inspections
                                 Office of Inspector General

SUBJECT:                         INFORMATION: Inspection Report on "Unclassified Foreign
                                 National Visits and Assignments at Oak Ridge National Laboratory"
BACKGROUND
In support of its research and development mission, the Department of Energy's national
laboratories host thousands of foreign national visitors and assignees (foreign nationals) every
year for research collaborations and access to scientific user facilities. During calendar year
2012, the Oak Ridge National Laboratory (Oak Ridge), which is managed by UT-Battelle, LLC,
hosted approximately 6,400 foreign nationals. Such visits and assignments can be beneficial to
the Department but may also create certain security risks.
In October 2010, Department Order 142.3A, Unclassified Foreign Visits and Assignments
Program, was revised to streamline requirements and re-evaluate processes to expedite foreign
nationals' access to the Department's national laboratories. Oak Ridge implemented Department
Order 142.3A through its Site Security Plan, which describes the assets that require protection,
and the programs, organizations and procedures that provide protection for these assets. The
Department Order and Site Security Plan require the Laboratory to assign a host to each foreign
national.1 To address site specific security concerns, host responsibilities are prescribed in a
Host Agreement and individual security plan, which is created for each visiting foreign national.2
These agreements provide the detailed responsibilities a host must accept prior to Oak Ridge
granting site access to a foreign national.
Because of the sensitivity of the Foreign National Visits and Assignments Program, and recently
updated Department policy, we initiated this inspection to determine if Oak Ridge had effective
procedures to mitigate risks regarding foreign nationals' unauthorized access to sensitive
information and national security assets, including technologies and equipment.

RESULTS OF INSPECTION

Our inspection revealed that improvements are needed in the implementation of the Department's
Foreign National Visits and Assignments Program at Oak Ridge. We determined that contrary

1
    Hosts are individuals who are assigned the day-to-day management and security of the foreign nationals.
2
    Individual security plans detail specific requirements to be met by the host for monitoring each type of foreign
    national.
to Host Agreements and individual security plans, hosts did not always maintain accountability
of foreign nationals as required. In addition, we found that Oak Ridge Office of
Counterintelligence (Counterintelligence) officials did not ensure that required
Counterintelligence consultations had been documented and completed in the Department's
Foreign Access Central Tracking System (FACTS) for foreign nationals prior to their visits.3

Host Accountability

We noted that hosts had not always maintained accountability of foreign nationals as specifically
required by Host Agreements and individual security plans. For example, contrary to
requirements of Host Agreements or individual security plans, hosts:

         Did not maintain contact with foreign nationals during their entire length of stay to ensure
         the hosts could convey details about each foreign nationals' work scope and technical
         competency to Counterintelligence;

         Used escorts instead of delegating alternate hosts; and

         Did not conduct walk-downs of each foreign national's work area to ensure that there was
         no export controlled equipment or technology in the area.4

Therefore, there was no assurance that hosts appropriately monitored foreign nationals' activities
as required.

Our review of Host Agreements and individual security plans revealed that assigned hosts are
responsible for foreign nationals throughout their entire stay, including any subsequent visits or
assignments at other user facilities. Foreign nationals are usually assigned hosts located at the
same user facility in which they initially perform work. This allows the hosts to monitor the
foreign national's visits while continuing to perform other assigned duties. However, we noted
that foreign nationals may also perform work away from the hosts' user facility.

                                Maintaining Contact with Foreign Nationals

We determined that 7 of the 16 hosts we interviewed did not maintain contact with foreign
nationals during their entire stay as required by Host Agreements and individual security plans.
During interviews, we were provided examples in which foreign nationals returned to work at
different Oak Ridge user facilities than their hosts'. Furthermore, according to hosts, advanced
notification of return visits by the foreign nationals was not always provided. Occasionally, the
hosts were not made aware of the return visits until after the foreign nationals had arrived on site.
In one instance, a foreign national arrived and departed while the host was absent from Oak
Ridge. Because the host was not notified in a timely manner, procedures requiring the
delegation of an alternate were not followed. The host said that in instances like this, the foreign

3
  Counterintelligence consultations are a process by which the approval authority from the local hosting site can
  request that Counterintelligence field offices evaluate foreign national access in lieu of a required indices check.
  Typically, Counterintelligence Consultations are conducted when indices checks may not be completed prior to the
  arrival of a foreign visitor.
4
  Department Order 142.3A states that escorts are responsible for ensuring that foreign nationals working or
  traveling within a site are escorted when required.

                                                          2
national should have been directed to the user office and assigned another host. Our review of
the Personnel Access System, the Oak Ridge system used to request access to Oak Ridge
facilities, found that this foreign national had not been assigned to a different host.

Two additional instances were identified, both occurring in June 2012, in which the assigned
host did not monitor foreign nationals because they returned to another Oak Ridge user facility to
work. In these instances, the host claimed to be knowledgeable of the other user facilities the
foreign nationals were working at and believed they would be properly observed. However, the
host did not validate that another host was assigned and appropriate monitoring of the foreign
nationals was conducted. Our review of the Oak Ridge Personnel Access System revealed that a
new host had not, in fact, been assigned to these foreign nationals. The interviewed hosts
expressed concerns that they were unable to fulfill their host requirements because contact could
not be maintained with the foreign national.

                                          Use of Escorts

We further determined that contrary to requirements, two programs utilized escorts instead of
appointing alternate hosts. For instance, we identified two hosts who had 185 separate foreign
nationals assigned to them in fiscal year 2011. In one example, a host was assigned 46 foreign
nationals during a single visit. During these assigned periods, the hosts did not monitor the
foreign nationals' activities, but used escorts to assist with tours and training. In addition, Oak
Ridge officials told us that escorts performed the same duties as the host. Our review of the Site
Security Plan found that the escort requirements were not addressed. Further, our review of
individual security plans stated that escorts of foreign nationals were not permitted at Oak Ridge.
We also noted that Oak Ridge escorts were not required to agree to or sign the Host Agreement
and individual security plan executed by the host.

                                Completion of Hosts Walk-Downs

Hosts from two of the largest user facilities at Oak Ridge reported that they were unable to
complete their host responsibilities. Specifically, hosts were unable to conduct walk-downs of
the approved buildings and inform building occupants that foreign nationals were present. Hosts
informed us that foreign nationals had been provided access to approximately 20 buildings, some
with 24-hour access, for over 2 years. This access had been provided so foreign nationals could
attend meetings, conferences and have access to a re-tooling laboratory on an as-needed basis.
Although Department Order 142.3A does not specifically require that hosts accompany foreign
nationals at all times, hosts indicated that because of the unlimited and open access granted to the
foreign nationals they were unable to ensure that the requirements dictated in the Host
Agreement and individual security plan were met.

Contributing Factors and Impact

Although we did not identify any instances in which export information or other scientific
information was inappropriately obtained by a foreign national, the risk that these events could
occur is higher than acceptable because of the weaknesses in Oak Ridge's program. The issues
we identified with host accountability occurred for a number of reasons:

       Foreign national hosts were not changed, regardless of the facility where work was
       conducted. Management did not change the hosts because it required a modification of

                                                 3
         the Oak Ridge Personnel Access System, which they believed would entail a review
         process of at least 7 days. However, in discussion with pertinent Department officials,
         we were told that a host change would not initiate another review process.

         Escort requirements for foreign nationals were not addressed in the Site Security Plan and
         escorts were not required to agree to or sign the Host Agreement and individual security
         plans.

         Foreign nationals were provided unaccompanied access to numerous buildings and as
         such, hosts were unable to ensure that the requirements in the Host Agreement and
         individual security plan were met.

We found that the Oak Ridge Host Audit Program, which provided management oversight of the
Foreign National Visits and Assignments program, had also not been effectively implemented.
For example, we received documentation that indicated that the program may not be completely
effective because only 8 of 1,400 trained hosts had been audited under this program since 2011.
In addition, hosts are expected to continue conducting day-to-day duties while assigned multiple
foreign nationals, activities that may require the hosts to be away from their workstations. Hosts
reported that they were uncomfortable hosting foreign nationals they were unable to monitor;
however, they were told by Oak Ridge managers that performing host functions were required as
part of their position.

Collectively, these issues have the potential to increase Oak Ridge's security risk that sensitive
information and national security assets could potentially be lost or compromised.

RECOMMENDATIONS AND PATH FORWARD

Based on the observations described in the report, we believe Oak Ridge can take a number of
steps to improve the implementation of the Department's Foreign National Visits and
Assignments Program. As such, we recommend that the Manager, Oak Ridge National
Laboratory Site Office:

    1.    Direct UT-Battelle, LLC to initiate the required steps to ensure that the Personnel
          Access System can support re-assigning hosts in a timely manner to ensure that all
          foreign nationals are monitored as required by Host Agreements and individual security
          plans;

    2.    Direct UT-Battelle, LLC to ensure that hosts designate appropriate alternate hosts so a
          qualified host is always present to fulfill hosting requirements;

    3.    Ensure that UT-Battelle, LLC defines the role of escorts;

    4.    Direct UT-Battelle, LLC to re-evaluate whether all foreign nationals to the user
          facilities should be provided access to multiple buildings on the Oak Ridge campus,
          and if so, to ensure that the host responsibilities can be adequately met when doing so;
          and




                                                 4
      5.   Ensure that UT-Battelle, LLC establishes and implements a robust Host Audit Program
           so host responsibilities are appropriately reviewed as part of the foreign national
           process.

                        Other Matters: Counterintelligence Consultations

We determined that Oak Ridge Counterintelligence was not documenting the use of
Counterintelligence Consultations in FACTS as required by Department Order 142.3A.
Consultations allow Counterintelligence field offices to conduct evaluations for foreign national
access in those instances where indices checks, conducted by the Intelligence Community and
coordinated by Headquarters Counterintelligence personnel, would not be completed by the start
date of the visit or assignment. We were told by a senior Oak Ridge Counterintelligence official
that they had not entered this information into FACTS based on a waiver that was received in an
email from Headquarters Counterintelligence in 2005. However, based on our discussion with a
Headquarters official from the Office of Health, Safety and Security, the 2005 email may have
been misinterpreted and Counterintelligence Consultations should have been entered into
FACTS. Subsequently, we discussed this matter with the Oak Ridge Counterintelligence staff
and they implemented procedures to correct this issue. We confirmed that the issue had been
addressed by accessing FACTS and viewing the information.

MANAGEMENT COMMENTS AND INSPECTOR RESPONSE

The Oak Ridge Site Office concurred with the report recommendations and identified actions it
had planned or had already taken to address our recommendations. In response to the report
recommendations a "Mass Host Change" tool is now available in the Personnel Access System,
which allows for new host(s) to be assigned quickly and requires the new host to accept the Host
Agreement/Acknowledgement and associated security plan. UT-Battelle will also process,
identify and implement a method of ensuring qualified hosts or qualified escorts are available to
fulfill hosting requirements; define specific roles and responsibilities of escorts through
procedural requirements; review foreign national access to user facilities and ensure building
access is assigned based on the identified need and that host responsibilities to the assigned
facilities can be met; and they will identify a process and implement a Host Audit Program to
ensure host responsibilities are appropriately reviewed and documented through reports and
performance metrics.

We consider management's comments responsive to the report's recommendations.

Attachment

cc:   Deputy Secretary
      Under Secretary for Science
      Chief of Staff
      Chief Health, Safety and Security Officer
      Manager, Oak Ridge Office




                                                  5
                                                                                    Attachment 1

                      OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

Because of the sensitivity of the Foreign National Visits and Assignments Program, and the
issuance of the updated Department of Energy (Department) Order 142.3A, Unclassified Foreign
Visits and Assignments Program, we initiated this inspection to determine if Oak Ridge National
Laboratory (Oak Ridge) had effective procedures to mitigate risks regarding foreign nationals'
unauthorized access to information, technologies or equipment.

SCOPE

We completed the fieldwork for this performance inspection from January 2012 to September
2013, at Oak Ridge National Laboratory in Oak Ridge, Tennessee.

METHODOLOGY

To accomplish the inspection objective, we:

       Reviewed applicable regulations, directives and policies related to unclassified foreign
       national visits and assignments;

       Reviewed and analyzed information contained in the Department's Foreign Access
       Central Tracking System and the UT-Battelle Personnel Access System required for
       documenting foreign national visits and assignments; and

       Interviewed appropriate officials from Headquarters, Oak Ridge and UT-Battelle, LLC.

We conducted this performance-based inspection in accordance with the Council of the
Inspectors General on Integrity and Efficiency's Quality Standards for Inspection and
Evaluation. Those standards require that we plan and perform the inspection to obtain sufficient,
appropriate evidence to provide a reasonable basis for our conclusions and observations based on
our inspection objective. We believe the evidence obtained provided a reasonable basis for our
conclusions and observations based on our inspection objective. Accordingly, the inspection
included tests of controls and compliance with laws and regulations to the extent necessary to
satisfy the inspection objective. Because our review was limited, it would not necessarily have
disclosed all internal control deficiencies that may have existed at the time of our inspection.
Also, we assessed the Department's compliance with the Government Performance and
Results Modernization Act of 2010 and determined that the Department had established
performance measures, in general, relating to the operation and security of foreign national
visitors and assignments. Finally, we relied on computer-processed data, to some extent, to
satisfy our objective. We confirmed the validity of such data, when appropriate, by reviewing
source documents.

Management waived the exit conference.



                                                6
                                                                            Attachment 2
                             PRIOR REPORT


Special Report on The Department's Unclassified Foreign Visits and Assignments
Program (DOE/IG-0791, March 2008). The objective of this review, due to the
sensitivity of the program and the potential for harm, was to determine whether the
Department of Energy (Department) had improved the management of its Foreign
Visits and Assignments Program. The report determined that the Department had
addressed several previously reported issues. However, additional and continuing
weaknesses diminished the effectiveness of controls designed to reduce the security risk
associated with foreign visits and assignments. In particular, hosts for foreign nationals
– individuals responsible for the day-to-day management and security associated with
visits or assignments – had not ensured that a number of protective measures were
implemented. These problems or programmatic shortcomings caused us to conclude
that security risks associated with the Department's Foreign Visits and Assignments
Program remain higher than necessary. Contractor operated laboratories had not
ensured that hosts were cognizant of their responsibilities and were performing them
properly. Those laboratories and the Office of Foreign Visits and Assignments also had
not taken sufficient steps to ensure that data in the Foreign Access Central Tracking
System was reliable. Problems with recordkeeping and tracking could limit the
Department's ability to provide accurate and/or complete foreign national information
to law enforcement agencies.




                                       7
                      Attachment 3

MANAGEMENT COMMENTS




         8
    Attachment 3 (continued)




9
                                                                    IG Report No. INS-O-13-05



                               CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message clearer to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.

Name __________________________________ Date ________________________

Telephone ______________________________ Organization __________________


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
